App. 1
ATTORNEYS FOR APPELLANT ATTORNEYS FOR APPELLEE
Curtis T. Hill, Jr.
Attorney General of
Indiana
Aaron T. Craft
Patricia C. McMath
Deputy Attorneys General
Indianapolis, Indiana

Dennis K. Frick
Emma L. Douglas
Indiana Legal Services, Inc.
South Bend, Indiana

IN THE
COURT OF APPEALS OF INDIANA
Indiana Family and Social
Services Administration,
Appellant-Defendant,
v.
Lance Patterson,
Appellee-Plaintiff.

January 17, 2019
Court of Appeals Case No.
18A-PL-925
Appeal from the
Henry Circuit Court
The Honorable
Kit C. Dean Crane, Judge
Trial Court Cause No.
33C02-1703-PL-19

Mathias, Judge.
This case requires us to once again delve into what
we have previously referred to as the “unfortunately
convoluted and complex” and “Byzantine” Medicaid
system. Legacy Healthcare, Inc. v. Barnes & Thornburg,
837 N.E.2d 619, 622 & n.2 (Ind. Ct. App. 2005), trans.
denied; see also Schweiker v. Gray Panthers, 453 U.S.
34, 43 (1981) (referring to the Social Security Act, of
which the Medicaid system is a part, as having a

App. 2
“Byzantine construction” that “makes the Act ‘almost
unintelligible to the uninitiated.’ ”) (quoting Friedman
v. Berger, 547 F.2d 724, 727, n. 7 (2d Cir. 1976)).
At issue here is how to determine the portion of
nursing home costs required to be paid by Lance Patterson (“Patterson”), a Medicaid recipient whose limited income is subject to a garnishment order due to a
rather substantial child support arrearage. The Indiana Family and Social Services Administration (“the
FSSA”) determined that the garnished portion of Patterson’s income should be included when determining
Patterson’s portion of the cost of his care. Patterson
challenged this decision by filing a claim for judicial
review in Henry Circuit Court. The trial court entered
judgment in favor of Patterson, determining that the
garnished portion of Patterson’s income should be excluded when determining Patterson’s share of nursing
home costs because Patterson did not actually receive
this income. The FSSA appeals the trial court’s decision, arguing that the trial court erred in granting Patterson’s petition because the FSSA’s decision was
consistent with federal and state law and was neither
arbitrary nor capricious. Because we agree with the
FSSA, we reverse.
The Medicaid System
A. Medicaid Overview
Before we address the specific facts of this case,
we first present a relatively brief explanation of the
Medicaid system. Title XIX of the Social Security Act,

App. 3
referred to as “Medicaid,” was enacted by the United
States Congress in 1965. Legacy Healthcare, 837
N.E.2d at 622 (citing Sullivan v. Day, 681 N.E.2d 713,
715 (Ind. 1997)). The purpose of Medicaid “is to provide
medical assistance to needy persons whose income and
resources are insufficient to meet the expenses of
health care.” Brown v. Ind. Family & Soc. Servs. Admin., 45 N.E.3d 1233, 1236 (Ind. Ct. App. 2015) (citing
Ind. Family & Soc. Servs. Admin. v. Thrush, 690 N.E.2d
769, 771 (Ind. Ct. App. 1998), trans. denied).
“The Medicaid statutes create a comprehensive
cooperative federal-state program for medical care under which participating states are federally financed
for their medical assistance programs if they submit a
state plan which comports with federal requirements.”
Legacy Healthcare, 837 N.E.2d at 622 (citing 81 C.J.S.
Social Security & Public Welfare § 247 (2004)). Thus,
the Medicaid program operates through a combined
scheme of state and federal statutory and regulatory
authority. Brown, 45 N.E.3d at 1236. Although a state’s
participation in Medicaid is voluntary, once a state
chooses to participate, as Indiana has, that state must
comply with the federal statutes and regulations governing the program. Legacy Healthcare, 837 N.E.2d at
622 (citing 81 C.J.S. at § 247); see also Schweiker, 453
U.S. at 43–44 (stating that states participating in Medicaid must “grant benefits to eligible persons ‘taking
into account only such income and resources as are, as
determined in accordance with standards prescribed
by the Secretary [of Health and Human Services],

App. 4
available to the applicant.’ ”) (citing 42 U.S.C.
§ 1396a(a)(17)(B)).
States that elect to participate in the Medicaid
program and receive federal funds must make Medicaid available to all persons who are deemed “categorically needy.” Lazzell v. Ind. Family & Soc. Servs.
Admin., 775 N.E.2d 1113, 1117 (Ind. Ct. App. 2002)
(citing Sullivan, 681 N.E.2d at 715); see also 42 C.F.R.
§ 435.4 (defining “categorically needy.”). Whether a
person is “categorically needy” is determined by reference to eligibility for certain other programs, including
supplemental security income (“SSI”). See id.; see
also 42 U.S.C. § 1396a(a)(10)(A)(i)(II)(aa);1 42 C.F.R.
§ 435.120.
States may also opt to provide Medicaid available
to the “optional categorically needy.”2 That is, states
may, at their option, cover other categorically needy
groups of people. See 42 U.S.C. § 1396a(a)(10)(A)(ii); 42
C.F.R. § 435.201; Herweg v. Ray, 455 U.S. 265, 268–69
1

A citation as complex as section “1396a(a)(10)(A)(i)(II)(aa)”
calls to mind Judge Friendly’s comment that “a draftsman who
has gotten himself into a position requiring anything like this
should make a fresh start.” Friedman, 547 F.2d at 727 n.7. We
further agree that “[s]uch unintelligibility is doubly unfortunate
in the case of a statute dealing with the rights of poor people.” Id.
2
States are permitted, but not required to offer Medicaid to
those deemed “medically needy,” which is defined as “individuals
whose income or resources were too great to qualify for categorically needy assistance but were unable to pay for necessary medical expenses.” Lazzell, 775 N.E.2d at 1117 (citing Roloff v.
Sullivan, 975 F.2d 333, 335 (7th Cir. 1992)). Indiana has chosen
not to provide Medicaid to the medically needy. Id.

App. 5
(1982). Indiana has chosen to provide Medicaid coverage to certain institutionalized, disabled individuals
whose monthly income is too high to otherwise qualify
as categorically needy, so long as the individual’s
monthly income does not exceed the special income
level of 300 percent of the maximum payable SSI benefit. See 405 I.A.C. 2-1.1-5(g); see also 42 U.S.C.
§ 1396a(a)(10)(A)(ii)(V); 42 C.F.R. § 435.1005.
B. Medicaid Eligibility Determination
States participating in Medicaid must establish
reasonable standards for determining eligibility, including the reasonable evaluation of an applicant’s
income and resources. Brown, 45 N.E.3d at 1236. To
qualify for Medicaid, an applicant must meet both an
income-eligibility test and a resources-eligibility test.
Id. If either the applicant’s income or the value of the
applicant’s resources is too high, the applicant does not
qualify for Medicaid. Id.
The federal Department of Health and Human
Services (“HHS”) has promulgated regulations establishing financial eligibility requirements for Medicaid
applicants and recipients. A state may opt to use a less
restrictive income methodology, so long as its methods
do not result in granting Medicaid benefits to those
whose income, as calculated using SSI standards, exceeds the “special income level.” See 42 U.S.C. § 1382a;
42 U.S.C. § 1396a(r)(2); 42 C.F.R. § 435.601(d)(1)(ii),
(d)(2). A state’s plan must specify whether it will use
the relevant federal standard or a less-restrictive

App. 6
standard. 42 C.F.R. § 435.601(f ). Indiana has adopted
the federal rule, not a less-restrictive option. Specifically, 405 Indiana Administrative Code section 2-1.15(a) states, “Individuals declared eligible for benefits
by reason of age, disability, or blindness are subject to
the income definition and exclusions set forth in 42
U.S.C. 1382a and 20 CFR Part 416, Subpart K Income.”3
A disabled person who has been continuously institutionalized for at least thirty days is eligible for
Medicaid under federal standards if his or her
monthly income, as determined under 42 U.S.C.
§ 1382a, does not exceed 300 percent of the maximum
SSI benefit. 42 U.S.C. §§ 1396a(a)(10)(A)(ii)(V), 42
C.F.R. §§ 435.236(a), 435.1005. In 2016, the maximum
payable SSI benefit for an individual was $733
monthly in 2016. It increased to $735 in 2017, and to
$750 in 2018. See SSI Federal Payment Amounts
https://www.ssa.gov/oact/COLA/SSIamts.html.
An individual’s includible income includes gross
earnings, net rental income, net self-employment income, and all gross unearned income except SSI benefits. 405 I.A.C. 2-1.1-5(g)(2). In determining Medicaid
eligibility, the Act requires the State to “tak[e] into account only such income and resources as are, as determined in accordance with standards prescribed by the
Secretary, available to the applicant or recipient[.]” 42
U.S.C. § 1396a(a)(17)(B) (emphasis added).
3

20 C.F.R. Part 416, Subpart K encompasses 20 C.F.R.
§§ 416.1100 through 416.1182.

App. 7
Pursuant to 42 U.S.C. § 1382a(a), “income” includes
“both earned income and unearned income[.]” “Earned
income” includes wages, and “unearned income” including disability benefits. Id. at § 1382a(a)(1)(A),
(a)(2)(B). As explained in the Code of Federal Regulations section entitled “What is earned income”:
Earned income may be in cash or in kind. We
may include more of your earned income than
you actually receive. We include more than
you actually receive if amounts are withheld from earned income because of a
garnishment or to pay a debt or other legal
obligation, or to make any other payments. . . .
20 C.F.R. § 416.1110 (emphasis added).
A similar provision applies to unearned income:
(b) Amount considered as income. We may
include more or less of your unearned income
than you actually receive.
***
(2) We also include more than you actually receive if amounts are withheld from
unearned income because of a garnishment, or to pay a debt or other legal obligation, or to make any other payment
such as payment of your Medicare premiums.
20 C.F.R. § 416.1123(b)(2).
In the present case, neither party makes any argument regarding Patterson’s Medicaid eligibility;

App. 8
they both agree that Patterson is eligible for Medicaid.
The question is, even though Patterson is eligible for
Medicaid, how much of his income must he still contribute to the cost of his care, and how is this amount
to be determined.
C. Post-Eligibility Income Determination
A disabled person who is in an institution and who
qualifies for Medicaid must still contribute some of his
or her income to the cost of his or her institutional care,
and Medicaid pays for the remaining costs at the Medicaid reimbursement rate. Medicaid Program Payments to Institutions, 53 Fed. Reg. 3586, 3586 (Feb. 8,
1988) (explaining 42 C.F.R. § 435.725). A state Medicaid agency must “reduce its payment to an institution
. . . by the amount that remains after deducting the
amounts specified in paragraphs (c) and (d) of this section, from the individual’s total income.” 42 C.F.R.
§ 435.725(a)(1). States have the option of using either
the individual’s “total income received” or a projected
“monthly income for a prospective period not to exceed
6 months.” 42 C.F.R. § 435.725(e)(1).
Once the agency identifies the recipient’s total income, it must then apply the deductions in paragraphs
(c) and may apply the items listed in paragraph (d).
42 C.F.R. § 435.725(c), (d). The five mandatory deductions are: (1) a personal-needs allowance; (2) maintenance needs of spouse; (3) maintenance needs of
family; (4) qualified medical expenses not subject to
third-party payment; and (5) the full amount of SSI

App. 9
benefits. 42 C.F.R. § 435.725(c).4 The recipient’s total
income less these deductions constitutes his Medicaid
liability—i.e., what he must pay for his nursing home
care and what Medicaid will not cover. 42 C.F.R.
§ 435.725(a).
In Indiana, 405 I.A.C. 2-1.1-7(a) addresses the portion of costs that a Medicaid recipient, such as Patterson, must pay toward the costs of his or her care. The
FSSA first determines the “recipient’s total income
that is not excluded by federal statute.” 405 I.A.C. 21.1-7(a)(2). It then makes five deductions: (1) a statutory-minimum personal-needs allowance; (2) an increased personal-needs allowance; (3) an amount for
health insurance premiums; (4) certain medical expenses for necessary or remedial care; and (5) federal,
state, and local income taxes. 405 I.A.C. 2-1.1-7(a)(3)–
(7). “The resulting amount is the amount by which the
Medicaid payment to the facility shall be reduced,” and
which must be covered by the Medicaid recipient. 405
I.A.C. 2-1.1-7(a). The parties refer to this as the recipient’s “liability,” i.e., the portion of the costs of care that
must be borne by the recipient. It is this amount, and
its calculation, that is at issue here.

4

A state agency may also deduct an amount for maintenance
of the recipient’s home, so long as there is a reasonable likelihood
that the person will return home within six months. 42 C.F.R.
§ 435.725(d).

App. 10
Facts and Procedural History
The historical facts underlying this case appear to
be relatively undisputed. At the time of the trial court’s
decision, Patterson was sixty-two years old and a resident of Miller’s Merry Manor nursing home (“Miller’s”)
in Middletown, Indiana. Patterson resides in Miller’s
as a result of his chronic heart failure, diabetes, and
various other medical issues.
Patterson’s only income comes from a Social Security Disability Insurance (“SSDI”) benefit of $1,236 per
month. Patterson is unmarried but has a thirty-twoyear-old daughter from a prior marriage. Due to his
failure to pay child support during his daughter’s minority, Patterson accumulated a large child support arrearage of more than $56,000 in Minnesota.5 As a
result of this arrearage, a Minnesota court issued a
garnishment order. Pursuant to this garnishment order, the Social Security Administration (“the SSA”)
withholds $730.80 from each of Patterson’s monthly
SSDI checks. The SSA also deducts $2.60 from Patterson’s benefit check for monthly health plan premiums.
Thus, only $502.60 each month is actually deposited in
Patterson’s bank account.
The FSSA determined that Patterson was eligible
for Medicaid in October 2016; Patterson’s income level
of $1,236 was less than the “special income level” of
$2,199, which represented three times the 2016
5

This amount represents the arrearage as of December
2016, when the trial court issued its order. The arrearage had
been as high as $94,000 in 2011.

App. 11
maximum payable Supplemental Security Income benefit of $733. The FSSA further determined that Patterson’s liability for his nursing home care was $1,181.
The FSSA determined Patterson’s liability by subtracting from Patterson’s total income a $52 personalneeds allowance and $2.60 for health care premiums.
The FSSA did not take into consideration that only
$502.60 each month was actually deposited in Patterson’s bank account, as it considered the whole of Patterson’s SSDI benefit as income, without deducting the
$730.80 garnished from his check to pay toward the
child support arrearage.
On November 1, 2016, the FSSA notified Patterson
by mail that, as of that date, he would be responsible
for paying $1,181 per month to his nursing home. Patterson administratively appealed the FSSA’s determination, arguing that the $730.80 garnished for his
child support arrearage should not have been included
in determining his Medicaid liability. On December 16,
2016, an Administrative Law Judge (“ALJ”) held a
hearing on the issue. At the time of this hearing, Patterson owed the nursing home $8,890. On January 20,
2017, the ALJ affirmed the FSSA’s initial determination. Patterson then appealed to the FSSA, which on
March 2, 2017, issued a final agency action affirming
the decision of the ALJ.
Patterson then sought judicial review of the
FSSA’s decision, filing a complaint for judicial review

App. 12
on March 31, 2017.6 The trial court held a hearing on
February 21, 2018, and issued findings of fact and conclusions of law on March 21, 2018, reversing the
FSSA’s determination. The FSSA now appeals.
Standard of Review
The FSSA appeals from the trial court’s grant of
Patterson’s complaint for judicial review of an agency
decision. Pursuant to the Indiana Administrative
Order and Procedures Act (“AOPA”), “[t]he burden of
demonstrating the invalidity of agency action is on the
party to the judicial review proceeding asserting invalidity.” Ind. Code § 4-21.5-5-14(a). A court may set aside
an agency action only if it is:
(1) arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law;
(2) contrary to constitutional right, power,
privilege, or immunity;
(3) in excess of statutory jurisdiction, authority, or limitations, or short of statutory
right;
(4) without observance of procedure required by law; or
(5)

6

unsupported by substantial evidence.

Patterson’s complaint included counts for declaratory and
injunctive relief under 42 U.S.C. section 1983. The parties later
agreed to dismiss the section 1983 claims.

App. 13
Id. at § 14(d). Patterson argued, and the trial court
agreed, that the FSSA’s income determination was “arbitrary, capricious, an abuse of discretion, or otherwise
not in accordance with law” under subsection 14(d)(1).
Both a trial court and an appellate court review
the decision of an administrative agency with the same
standard of review. Gray v. Med. Licensing Bd. of Ind.,
102 N.E.3d 917, 921 (Ind. Ct. App. 2018). When reviewing a challenge to an administrative agency’s decision,
a court may not re-try “the facts de novo nor substitute
its own judgment for that of the agency.” Jay Classroom Teachers Association v. Jay School Corp., 55
N.E.3d 813, 816 (Ind. 2016). Instead, a court must defer
to an agency’s findings if they are supported by substantial evidence. Id.
In contrast to our deference to an agency’s factual
findings, it has been held that a court may review an
agency’s conclusions of law de novo. Id. But despite
this “de novo” review, a court is to give “great weight”
to the agency’s interpretation of the law. Id. (citing
West v. Office of Ind. Sec’y of State, 54 N.E.3d 349, 353
(Ind. 2016)). “In fact, ‘if the agency’s interpretation is
reasonable, we stop our analysis and need not move
forward with any other proposed interpretation.’ ” Id.
This is true even if the opposing party presents an
equally reasonable interpretation. Id.
Patterson argues that our usual deference to an
agency’s interpretation should not apply because the
FSSA is interpreting a federal regulation. Patterson
also notes that our supreme court has cited with

App. 14
approval the proposition that “ ‘[c]ourts will give no
special deference to interpretation by one agency of
another agency’s rules.’ ” LTV Steel Co. v. Griffin, 730
N.E.2d 1251, 1257 (Ind. 2000) (quoting Charles H.
Koch, Jr., Administrative Law and Practice § 11.26, at
140 (2d ed. 1997)). But the two agencies at issue in
LTV Steel were two separate state-level agencies: the
State Ethics Commission and the Indiana Board of
Safety Review. The LTV Steel court held that the Board
of Safety Review’s interpretation and enforcement of
the State Ethics Code was in excess of the Board’s jurisdiction. Id. at 1258.
In contrast, the Medicaid program is, as discussed
above, a cooperative federal-state program. And Indiana is required to comply with the federal statutes
and regulations governing the program. Legacy
Healthcare, 837 N.E.2d at 622. Thus, we will give great
weight to the FSSA’s interpretation of federal Medicaid statutes, rules, and regulations. See Assateague
Coastkeeper v. Maryland Dep’t of Env’t, 28 A.3d 178,
206 (2011) (holding that when a state agency is
charged with the day-to-day responsibility for enforcing and administering a federal regulation, courts
should give deference to the agency’s interpretation of
that regulation if the language of the agency’s regulation is unclear and susceptible to different reasonable
interpretations and the agency’s interpretation of the
regulation is reasonable) (citing In re Cities of Annandale & Maple Lake NPDES/SDS Permit Issuance for
the Discharge of Treated Wastewater, 731 N.W.2d 502,
515 (Minn. 2007). Accordingly, we will defer to the

App. 15
FSSA’s factual findings and only determine if its interpretation of the Medicaid statutes and regulations are
reasonable.
Discussion and Decision
As noted above, the parties do not dispute that
Patterson is eligible for Medicaid; both agree that he
is. Patterson also does not deny that, when determining eligibility for Medicaid, the FSSA is required to include all of his income, including the portion thereof
subject to garnishment. Instead, Patterson notes that
there are two, discrete income calculations at issue
here. The first one is used in determining Medicaid eligibility; the second, post-eligibility determination is
used in determining the Medicaid recipient’s liability
for a portion of his or her care.
In this post-eligibility determination, the FSSA argues that Patterson’s income is still calculated to include even that portion of his income that is subject to
the garnishment order. Patterson claims that, even
though the garnished portion of his income is included
when determining his eligibility for Medicaid, it is to
be excluded when determining his liability for his care.
Thus, the question before us is how to calculate Patterson’s income for the purposes of determining the portion of his health care expenses Patterson is required
to pay himself.
The applicable FSSA regulation, entitled “Posteligibility treatment of income,” provides in relevant
part as follows:

App. 16
This subsection applies to individuals in institutions.
(1) Except as provided in 405 IAC 2-317, the following procedure shall be used
to determine the amount of income to be
paid to an institution for an applicant or
recipient who has been determined eligible under section 5(g) of this rule and who
is residing in an institution as defined in
405 IAC 2-1-1(e).
(2) Determine the applicant’s or recipient’s total income that is not excluded by federal statute, which
includes amounts deducted in the eligibility determination under section 5(g)(3) of
this rule.[7]
(3) Subtract the minimum personal
needs allowance specified in IC 12-15-7-2.
(4) Subtract an amount for increased
personal needs as allowed under Indiana’s approved Medicaid state plan. The
increased personal needs allowance includes, but is not limited to, court ordered
guardianship fees paid to an institutionalized applicant or recipient’s legal
guardian, not to exceed thirty-five dollars

7

405 I.A.C. section 2-1.1-5(g)(3) provides that “[a]ny income
from another financially responsible relative described under 405
IAC 2-3-4 will not be included when determining whether an individual falls below the special income level.” There is no indication that Patterson has “another financially responsible relative.”

App. 17
($35) per month. Guardianship fees include all services and expenses required
to perform the duties of a guardian, as
well as any attorney’s fees for which the
guardian is liable.
(5) Subtract the amount of any health
insurance premiums.
(6) Subtract an amount for expenses incurred for necessary or remedial care recognized by state law but not covered
under the state plan, subject to any reasonable limits set forth in Indiana’s approved Medicaid state plan.
(7) Subtract an amount for federal,
state, and local taxes owed and paid by
the applicant or recipient. This deduction
is limited to one (1) calendar month per
year.
The resulting amount is the amount by which
the Medicaid payment to the facility shall be
reduced.
405 I.A.C. § 2.1.1-7(a). Notably, there is no provision for
the subtraction of wages that are subject to garnishment.
The federal regulation regarding the post-eligibility determination of income is 42 C.F.R. § 435.725. This
rule, entitled “Post-eligibility treatment of income of
institutionalized individuals in SSI States: Application
of patient income to the cost of care,” provides in relevant part as follows:

App. 18
(a)

Basic rules.
(1) The agency must reduce its payment
to an institution, for services provided to
an individual specified in paragraph (b) of
this section, by the amount that remains
after deducting the amounts specified in
paragraphs (c) and (d) of this section,
from the individual’s total income,
(2) The individual’s income must be
determined in accordance with paragraph (e) of this section.
(3) Medical expenses must be determined in accordance with paragraph (f )
of this section.

(b) Applicability. This section applies to the
following individuals in medical institutions
and intermediate care facilities.
(1) Individuals receiving cash assistance
under SSI or AFDC who are eligible for
Medicaid under § 435.110 or § 435.120.
(2) Individuals who would be eligible for
AFDC, SSI, or an optional State supplement except for their institutional status
and who are eligible for Medicaid under
§ 435.211.
(3) Aged, blind, and disabled individuals who are eligible for Medicaid, under
§ 435.231, under a higher income standard than the standard used in determining eligibility for SSI or optional State
supplements.

App. 19
(c) Required deductions. In reducing its payment to the institution, the agency must deduct the following amounts, in the following
order, from the individual’s total income, as
determined under paragraph (e) of this section. Income that was disregarded in determining eligibility must be considered
in this process.
(1) Personal needs allowance. A personal needs allowance that is reasonable
in amount for clothing and other personal
needs of the individual while in the institution. This protected personal needs allowance must be at least—
(i) $30 a month for an aged, blind,
or disabled individual, including a
child applying for Medicaid on the
basis of blindness or disability;
***
(iii) For other individuals, a reasonable amount set by the agency, based
on a reasonable difference in their
personal needs from those of the
aged, blind, and disabled.
(2)

Maintenance needs of spouse. . . .
***

(3)

Maintenance needs of family. . . .
***

(4) Expenses not subject to third party
payment. Amounts for incurred expenses

App. 20
for medical or remedial care that are not
subject to payment by a third party, including—
(i) Medicare and other health insurance premiums, deductibles, or coinsurance charges; and
(ii) Necessary medical or remedial
care recognized under State law but
not covered under the State’s Medicaid plan, subject to reasonable limits the agency may establish on
amounts of these expenses.
(5) Continued SSI and SSP benefits.
The full amount of SSI and SSP benefits
that the individual continues to receive
under sections 1611(e)(1)(E) and (G) of
the Act.
(d) Optional deduction: Allowance for home
maintenance. . . .
***
(e)

Determination of income—
(1) Option. In determining the amount
of an individual’s income to be used to reduce the agency’s payment to the institution, the agency may use total income
received, or it may project monthly income for a prospective period not to exceed 6 months.
(2) Basis for projection. The agency
must base the projection on income received in the preceding period, not to

App. 21
exceed 6 months, and on income expected
to be received.
(3) Adjustments. At the end of the prospective period specified in paragraph
(e)(1) of this section, or when any significant change occurs, the agency must reconcile estimates with income received.
(f )

Determination of medical expenses—
(1) Option. In determining the amount
of medical expenses to be deducted from
an individual’s income, the agency may
deduct incurred medical expenses, or it
may project medical expenses for a prospective period not to exceed 6 months.
(2) Basis for projection. The agency
must base the estimate on medical expenses incurred in the preceding period,
not to exceed 6 months, and on medical
expenses expected to be incurred.
(3) Adjustments. At the end of the prospective period specified in paragraph
(f )(1) of this section, or when any significant change occurs, the agency must reconcile estimates with incurred medical
expenses.

42 C.F.R. § 435.725 (emphases added).
The FSSA contends that the amount of the costs
of medical care that Patterson is required to pay—his
liability—is determined as set forth in subsection (a) of
42 C.F.R. section 435.725. That is, the FSSA must

App. 22
reduce its payment to the nursing home “by the
amount that remains after deducting the amounts
specified in paragraphs (c) and (d) of [section 435.725]
from [Patterson]’s total income.” Id. at § 435.725(a)
(emphasis added). The FSSA argues that Patterson’s
total income includes the amount subject to the Minnesota court’s garnishment order. Otherwise, the
FSSA argues, Medicaid would effectively be subsidizing Patterson’s child support delinquency.
Patterson argues that that portion of his income
that is subject to garnishment should not be counted
toward his income because subsection (e) refers to “total income received.” Id. at § 435.725(e). Patterson argues that he does not “receive” that portion of his
income that is subject to the garnishment order, and
that this amount should therefore not be included
when determining his income for purpose of calculating his liability for his medical care.
We agree that the references to “total income” in
subsection 435.725(a) and “total income received” in
subsection 435.725(e) render this section ambiguous.
That is, they are subject to two different, reasonable
interpretations: one includes all income, the other only
income that is “received.” But this is all the more reason for us to defer to the FSSA’s interpretation of this
rule.
More importantly, the HHS has indicated that it
interprets the income calculation set forth in 42 C.F.R.
section 435.725 to include the same income calculation
that is used in determining Medicaid eligibility, which

App. 23
calculation includes income that is subject to garnishment. When issuing an amendment to 42 C.F.R. section
435, the HHS Secretary commented that, regarding
the issue of interest and dividends, “[t]he post-eligibility process is based on a consideration of all income
considered in the eligibility process.” Medicaid Program Payments to Institutions, 53 Fed. Reg. 3586, 3587
(Feb. 8, 1988).
Thus, the HHS has determined that the posteligibility income calculation for determining a recipient’s liability includes “all income” considered in the
initial eligibility determination.8 And it is abundantly
clear that the initial eligibility income calculation includes income subject to garnishment. See 20 C.F.R.
§ 416.1110; Supplemental Security Income for the
Aged, Blind, and Disabled; How We Count Earned and
Unearned Income; Funds Used to Pay Indebtedness,
56 Fed. Reg. 3209 (Jan. 29, 1991) (“These final rules
clarify the regulations to reflect a longstanding Social
Security Administration (SSA) policy that amounts
withheld from earned and unearned income for payment of a debt or other legal obligation are included in
income for the purpose of determining eligibility and
payment amount under the Supplemental Security
Income (SSI) program.”). This is directly contrary to
Patterson’s position that income should be calculated
8

In fact, 42 C.F.R. section 435.725(c) provides that, in the
post-eligibility income determination, “[i]ncome that was disregarded in determining eligibility must be considered in this
[post-eligibility] process.” Accordingly, the post-eligibility determination is, if anything, more inclusive of income than the eligibility determination.

App. 24
differently depending upon whether the agency is determining eligibility or post-eligibility recipient liability.
Moreover, the FSSA’s interpretation is not unreasonable because it acknowledges that Patterson still
receives the benefit of the money that is garnished. By
having the garnishment applied to his outstanding
child support arrearage, Patterson has received a benefit from the garnishment—his debt is reduced. In fact,
if we were to agree with Patterson, the result would be
that Medicaid would be effectively subsidizing his
child support arrearage. This can hardly have been
the intent of the Medicaid program. See Peura ex rel.
Herman v. Mala, 977 F.2d 484, 490 (9th Cir. 1992) (noting that excluding the full amount of a child support
obligation from the “available” income of a Medicaid
recipient would lead to unintended subsidization of
a disproportionate amount of health care benefits);
Cervantez v. Sullivan, 963 F.2d 229, 235 (9th Cir. 1992)
(noting that excluding garnishment from calculation of
income would give claimants an incentive to fail to pay
their debts and await garnishment, thereby shifting
the cost of repayment to the SSI program), as amended
on denial of reh’g; see also 56 Fed. Reg. 3209, 3211 (“It
is not the purpose of the SSI program to subsidize any
types of indebtedness whether that indebtedness results from a debtor/creditor relationship or from an obligation imposed by public policy.”).
In short, the FSSA’s interpretation of the applicable statutes and regulations is reasonable. Because the
FSSA’s interpretation of the regulations is reasonable,

App. 25
“we must stop our analysis and need not move forward
with any other proposed interpretation.” Jay Classroom Teachers Ass’n, 55 N.E.3d at 816 (citing West, 54
N.E.3d at 353). Accordingly, the trial court erred in determining that the FSSA’s interpretation was arbitrary, capricious, an abuse of discretion, or otherwise
not in accordance with the law.
We find support for our conclusion in Ussery v.
Kansas Department of Social & Rehabilitation Services., 899 P.2d 461 (Kan. 1995). In that case, as here,
there was no question that Ussery was entitled to Medicaid benefits. Rather, the issue was the extent of his
“patient liability,” i.e., “the amount that the individual
is required to pay towards the cost of care which the
individual receives in an institutional arrangement.”
Id. at 464. Ussery argued that his court-ordered support for his ex-wife should be excluded from his income
when determining his liability. Because neither federal
nor state regulations contained an exemption for such
support payments, the court rejected Ussery’s contention and held that the Kansas Medicaid agency’s calculation, which included his support payment, was
part of Ussery’s available income. Id. at 466–67.
A similar conclusion was reached in Tarin v. Commissioner of the Division of Medical Assistance, 678
N.E.2d 146 (Mass. 1997). The state Medicaid agency
determined that Tarin’s court-ordered child support
payments should be included in his available income
when determining his patient liability. On appeal,
the court affirmed the agency’s determination, noting
that the regulations concerning income exemptions for

App. 26
Medicaid recipients do not provide for any exemption
for child support payments when the recipient is not
living with a spouse. 678 N.E.2d at 151. The court concluded that the HHS Secretary “has made it clear that
income ‘available’ to a divorced Medicaid recipient may
include income used to make court-ordered child support payments.” Id. The court also noted that:
Three United States Circuit Courts of Appeals
that have considered the matter all have upheld the disallowance of deductions for courtordered child support payments for a Medicaid income availability determination. See
Himes v. Shalala, [999 F.2d 684, 690–691 (2d
Cir.1993)] (inclusion of child support payments in “available” income is “reasonable attempt to interpret and apply all sections of the
statute”; Secretary’s interpretation “is not at
odds with the plain meaning of the statute, is
reasonable, and should therefore be accorded
the usual deference”); Peura v. Mala, 977 F.2d
484, 491 (9th Cir. 1992) (“high degree of deference” is owed to Secretary’s determination);
Emerson v. Steffen, [959 F.2d 119, 123 (8th Cir.
1992)] (“[a]lthough not directly defining the
term ‘available,’ the regulations make it plain
that . . . states do not have to exclude [child
support] payments from income when determining Medicaid eligibility. . . .”).
Tarin, 678 N.E.2d at 152.9
9

Patterson argues that the cases cited by the Tarin court,
and by the FSSA in the present case, dealt with determining
income for the purposes of Medicaid eligibility only, not for

App. 27
Patterson relies heavily on Mulder v. South Dakota Department of Social Services., 675 N.W.2d 212
(S.D. 2004). In Mulder, the South Dakota Medicaid
agency determined that Mulder was eligible for Medicaid, but when determining his liability for his care,
the agency did not exclude from his monthly income
$180 that was withdrawn to pay his alimony obligation. Mulder appealed, and a three-justice majority of
the South Dakota Supreme Court agreed with him
that the alimony should not be included in his income.
See id. at 217 (“[T]he Department’s determination that
Mulder’s alimony payments constitute “available income” was not reasonable). We simply disagree with
the Mulder court and decline to follow it.
post-eligibility patient liability purposes. The Tarin court rejected
a similar argument, stating:
We recognize that in both Himes and Emerson the
courts were reviewing the Secretary’s determination of
a recipient’s “available” income for the purpose of establishing only eligibility for Medicaid, and not benefit
levels, the issue in this case. However, in Peura, the
plaintiff, like Tarin, challenged a State’s determination
of required payments for nursing home costs. In upholding the Secretary’s determination, the United
States Court of Appeals for the Ninth Circuit concluded
that it was “of little import” that the Secretary’s determination regarding Peura’s child support obligations
came “in the context of a post-eligibility determination.” Peura, supra at 487 n.4. See Ussery v. Kansas
Dep’t of Social & Rehabilitation Servs., 258 Kan. 187,
899 P.2d 461 (1995), upholding the inclusion of courtordered spousal support payments in a Medicaid recipient’s “available” income in establishing benefit levels.
678 N.E.2d at 153. As discussed above, we agree with the Tarin
court’s reasoning on this matter.

App. 28
Patterson makes a sound policy argument that the
FSSA’s decision leaves him in the lurch. That is, even
though he qualifies for Medicaid, the FSSA’s inclusion
of the garnished portion of his income in determining
his liability means that he is stuck owing the nursing
home more money than he has access to. This means
that either the nursing home must continue to care for
him at a loss, or he must come up with another source
of income, which is unlikely. Hopefully, Patterson can
find care at a less expensive facility, or at least one that
is willing to accept that portion of his care that Medicaid is willing to pay for.
Despite the merits of Patterson’s argument, it is
not the role of this court to determine Medicaid policy.
That role belongs to the FSSA and the HHS. The only
question before us is whether the FSSA’s interpretation of the relevant state and federal regulations is
reasonable, and we cannot say that the FSSA’s interpretation is unreasonable.
Conclusion
Because the FSSA is responsible for implementing
the cooperative state-federal Medicaid system in Indiana, we give its interpretation of these statutes and
regulations great weight. And since the FSSA’s interpretation is reasonable, our analysis stops there. The
trial court’s analysis should have stopped there too. We
therefore reverse the judgment of the trial court.
Reversed.

App. 29
Bailey, J., concurs with opinion.
Bradford, J., concurs.

IN THE
COURT OF APPEALS OF INDIANA
Indiana Family and Social
Services Administration,

Court of Appeals Case No.
18A-PL-925

Appellant-Defendant,
v.
Lance Patterson,
Appellee-Plaintiff.
Bailey, Judge, concurring.
I agree that the trial court erred, although I do so
reluctantly. “Medicaid is a cooperative State and Federal program designed to provide health care to needy
individuals.” Mulder v. South Dakota Dept. of Social
Serv., 675 N.W.2d 212, 214 (S.D. 2004) (emphasis
added). Patterson is, without dispute, a needy individual based upon his limited resources and his institutionalized status. Yet, the FSSA position would leave
him evicted from his care facility or necessitate that
the facility continuously and substantially subsidize
Patterson – something not uniformly required of other
providers participating in the Medicaid program. At
the end of the process (whereby eligibility is determined in step one and financial liability is calculated
in step two), payment allocation is to be made between

App. 30
government funding and what the impoverished individual can afford to pay. There is no onus upon a provider to subsidize the patient beyond the provision of
services at an already-discounted rate.
Unearned income, such as Patterson’s disability
payments, may include garnished sums. 20 C.F.R.
§ 416.1123(b)(2). Patterson meets eligibility requirements even with garnished sums, and step two, the
financial liability calculation, incorporates the garnished sums as part of Patterson’s income. As for Patterson’s ability to pay, however, he simply does not
have access to funds to satisfy the liability assigned to
him. Given the humanitarian purposes of Medicaid, I
would expect that “received” should be understood
with reference to what one has with which to pay and
not a factual or legal fiction. Nevertheless, the establishment of public policy is a legislative function. There
are certainly competing policies here: we require parents to support their children, we do not insist that private enterprise subsidize an individual’s non-payment,
and we do not abandon desperately ill and destitute
individuals without care.
True, Patterson did not pay his child support in
full. He should have done so if able, given his chronic
health conditions. Yet Medicaid is not restricted to
those who have acted only legally and wisely. It is plain
to me that unwise choices may lead to or contribute to
impoverishment (for example, substance abuse, incarceration, or leaving employment). But ultimately, Medicaid applicants are not categorically excluded for past
lifestyle choices. Nor are they uniformly penalized for

App. 31
having dependents. Indeed, familial obligations are
taken into account in similar contexts. 42 U.S.C.
§ 435.725 permits a spousal allowance and a family allowance for certain dependent family members living
in the home.
I do not condone a voluntary decision not to pay
child support. Yet I find it ironic that, were Patterson
imprisoned for felony non-support, he would be provided with the care he desperately needs. In the
convergence of circumstances present here – total disability requiring institutionalization, impoverishment,
and a state-enforced action for child support arrearage
– there is no optimal outcome with equity for all concerned. I understand the trial court’s attempt to exercise compassion. However, because the trial court
found invalidity of agency action where there was
none, I concur in the reversal.

App. 32
STATE OF INDIANA
COUNTY OF HENRY
LANCE PATTERSON

)
)
)
)

IN THE HENRY
CIRCUIT COURT 2
CASE NO:
33C02-1703-PL-000019

V.
INDIANA FAMILY AND SOCIAL SERVICES
ADMINISTRATION
FINDINGS OF FACT, CONCLUSIONS OF LAW
AND JUDGMENT ENTRY ON PLAINTIFF’S
REQUEST FOR JUDICIAL REVIEW
(Filed Mar. 21, 2018)
FINDINGS OF FACT
1. Plaintiff Lance Patterson (“Mr. Patterson”) is
now 62 years of age. At the time of the administrative
hearing and when this case was filed, he was a resident
of Miller’s Merry Manor, a nursing home located in
Middletown, Henry County, Indiana.
2. Defendant Indiana Family and Social Services
Administration (“FSSA”) is the state agency which administers Medicaid in Indiana.
3. Mr. Patterson is a recipient of the Medicaid
category known as Medical Assistance to the Disabled.
ALJ Decision, Findings of Fact ¶1, Rec. p. 148.
4. Mr. Patterson’s only income is Social Security
Disability benefits. In 2016 his gross monthly benefit
was $1,236 per month. ALJ Decision, Findings of Fact
¶15, Rec. p. 149.

App. 33
5. From Mr. Patterson’s gross monthly benefits,
the Social Security Administration (SSA) withheld
$730.80 per month for child support and $2.60 for a
health plan premium, so that his net benefit payment
was $502.60 per month. Rec., p. 105. The $730.80 is
withheld pursuant to an Income Withholding for Support order issued by the Ramsey County Child Support
and Collections office in Minnesota. The $730.80 order
was all for past due support for child Tanisha Smith,
born January 10, 1986. ALJ Decision, Findings of Fact
¶14, Rec. pp. 148-149, Appellant’s Exh. 5, Rec. pp. 137
- 142.
6. On October 25, 2016 FSSA notified Mr. Patterson that beginning November 1, 2016 he was responsible for paying $1,181 monthly to the facility where he
resides. FSSA refers to this amount as a “liability.” ALJ
Decision, Findings of Fact ¶3, Rec. p. 148; FSSA Notice,
Rec. p. 3.
7. FSSA’s budget sheet showed that Mr. Patterson’s income of $1,236 was less than the “Special Income Level” of $2,199, so that he passed the eligibility
step. Rec., p. 102.
8. FSSA’s “Post – Eligibility Determination”
budget shows that FSSA calculated Mr. Patterson’s liability as follows:
Total Countable Income

$1,236.00

- Personal Needs Allowance $
- Health Plan Premium
Mr. Patterson’s Liability

$

52.00
2.60

$1,181.00

App. 34
Rec., p. 102; ALJ Decision, Findings of Fact ¶16, Rec. p.
149 [This Finding contains a typing error listing Mr.
Patterson’s Social Security income as $1,126 rather
than as $1,236].
9. In calculating the liability that Mr. Patterson
was to pay to the nursing home each month, FSSA deducted the $2.60 that was deducted from his Social Security benefits for a health plan premium but did not
deduct the $730.80 that was withheld for child support, with the result that his liability of $1,181 was
$678.40 more than the net income of $502.60 which he
actually received.
10. As of December, 2016, Mr. Patterson owed
Miller’s Merry Manor $8,890 due to his inability to pay
his monthly liability. Appellant’s Exh. 2, Rec. p. 116.
11. On November 23, 2016 Mr. Patterson submitted a request to FSSA to appeal the calculation of the
liability he was to pay to the nursing home where he
resided. ALJ Decision, Findings of Fact ¶4, Rec. p. 148.
12. A hearing on Mr. Patterson’s appeal was conducted by FSSA Administrative Law Judge Rebecca
Licht on December 16, 2016. Transcript of Hearing,
Rec. pp. 18-88.
13. On January 20, 2016, the Administrative
Law Judge issued a decision affirming FSSA’s liability
determination. ALJ Decision, Rec. pp. 146-154. In response to Mr. Patterson’s position that the amount being deducted from his income pursuant to the child

App. 35
support income withholding order should be deducted
in determining his liability, the ALJ concluded:
State Agency followed all regulations
cited above to determine allowable deductions
to be given to the Appellant when determining his monthly liability obligation. No regulation was found for garnishment of arrears
child support to a non-dependent child to be
an allowable deduction in liability amount determination.
ALJ Decision, Conclusions of Law, Rec. pp. 152-153
14. On February 3, 2017 Mr. Patterson, by his attorney, filed a request for agency review of the ALJ’s
decision. Rec. pp. 156-163.
15. On March 2, 2017 FSSA issued its Notice of
Final Agency Action affirming the decision of the ALJ.
Rec. p. 165.
16. Mr. Patterson filed his Verified Complaint for
Judicial Review and Declaratory and Injunctive Relief
on March 31, 2017.
CONCLUSIONS OF LAW
1. This Court has jurisdiction over Mr. Patterson’s claim for judicial review under Ind. Code § 421.5-5.
2. The burden of demonstrating the invalidity of
agency action is on Mr. Patterson, as he is the party

App. 36
asserting the invalidity of the agency action. I.C. § 421.5-5-14(a).
3. In a judicial review proceeding, the court gives
deference to the agency’s findings of fact, if supported
by substantial evidence, but the court determines
questions of law.
4. Whether child support which is being garnished from Social Security benefits must be deducted
when determining the liability which a Medicaid recipient must pay to a nursing home is a question of law
for the court to decide.
5. Medicaid is a joint program between the federal and state government. Medicaid is established in
federal law at Title XIX of the Social Security Act, 42
U.S.C. § 1396 et seq. Medicaid is codified in Indiana at
I.C. 12-15.
6. Both federal and state law refer to a two-step
process for considering income for Medicaid nursing
home residents. First, the agency makes an eligibility
determination whether the person qualifies for Medicaid. It uses a budget it calls an “eligibility budget” to
decide eligibility. An applicant or recipient must have
countable income of no more than the “Special Income
Level” to be eligible. 405 I.A.C. 2-1.1-5(g); 42 CFR
§§ 425.236, 435.1005.
7. Second, once eligible, a new budget referred to
as a “post eligibility” budget is used to calculate the liability. This is referred to as a “post eligibility determination.” 405 I.A.C. 2-1.1-7(a); 42 CFR § 435.725.

App. 37
8. Both the federal and the state regulations refer to using Supplemental Security Income (SSI) rules
set forth in 42 U.S.C. § 1382a and 20 CFR Part 416 in
the Medicaid eligibility determination. 405 I.A.C. 21.15(a); 42 CFR § 435.1005.
9. SSI rules provides [sic] that amounts payable
for child support are not deductible when counting income for SSI eligibility. 20 CFR § 416.1132(b)(2).
10. Federal and state law require that child support that is being garnished be counted when determining eligibility for Medicaid.
11. Mr. Patterson passes the eligibility budget
even though the child support being garnished is
counted. Rec. p. 102 shows that Mr. Patterson passes
the eligibility step because his gross income of $1,236
was less than the Special Income Level of $2,199.
12. Once an applicant or recipient passes the eligibility test, a separate budget known as a “post eligibility” budget is used to determine the liability the
recipient is to pay to the nursing home.
13. Both the federal agency and FSSA have a
separate regulation on post eligibility calculation of a
liability. The federal regulation on post eligibility budgeting, 42 CFR § 435.725(e), repeatedly uses the phrase
“income received.” There is no cross reference in this
regulation to the SSI rules.
14. 405 I.A.C. 2-1.1-7, which is FSSA’s regulation
concerning the post-eligibility treatment of income,
does not refer to the SSI rules, but instead begins with

App. 38
“the applicant’s or recipient’s total income that is not
excluded by federal statute.”
15. FSSA is subject not only to the federal Medicaid statute, but also to the federal Medicaid regulations. Since 42 CFR § 435.725(e) requires that the
liability be based on the income received, when calculating a recipient’s liability FSSA cannot count as income amounts which are being garnished from Social
Security for the payment of child support and are thus
not received.
16. Because a resident is only allowed to keep
$52 per month as a personal needs allowance, it is unreasonable and arbitrary for FSSA to count the
$730.80 which is being garnished from Mr. Patterson’s
income and to which he has no access when determining his liability. Counting the $730.80 results in Mr.
Patterson not being able to pay his liability and results
in Miller’s Merry Manor receiving $730.80 a month
less than its monthly bill for services.
17. Counting the amount being garnished for
child support is contrary to 42 U.S.C. § 1396a(a)(17),
which requires that a state’s Medicaid plan must include reasonable standards and only consider income
that is available.
18. FSSA’s decision to count the $730.80 which
is being garnished from Mr. Patterson’s income was arbitrary, capricious, an abuse of discretion, or otherwise
not in accordance with law. Mr. Patterson was prejudiced by FSSA’s decision and is entitled to relief.

App. 39
JUDGMENT
IT IS THEREFORE ORDERED, ADJUDGED
AND DECREED that the decision by Defendant Indiana Family and Social Services Administration to
count the $730.80 which was being garnished from
Plaintiff Lance Patterson’s Social Security benefits
when determining the liability he was to pay to the
nursing home is reversed. Plaintiff’s judicial review
claim is remanded to the Defendant Indiana Family
and Social Services Administration for further proceedings consistent with this decision.
So ordered on this the 21st day of March, 2018.
/s/ Kit C. Dean Crane
Kit C. Dean Crane, Judge
Henry Circuit Court 2
Distribution: Dennis Kay Frick
151 N DELAWARE STREET
SUITE 1800
Indianapolis IN 46204
Kelly Suzanne Witte
OFFICE OF INDIANA
ATTORNEY GENERAL
IGCS - 5th Floor
302 West Washington Street
Indianapolis IN 46204

App. 40
[LOGO]

Eric Holcomb, Governor
State of Indiana

Hearings and Appeals
MS04, 402 W. Washington Street, ROOM E034
MAR 02 2017
Indianapolis, IN 46204-2739
317-234-3488
Toll Free: 866-259-3573
FAX: 317-232-4412
IN THE MATTER OF:
CASE NAME:
LANCE PATTERSON
CASE NUMBER: MD-48-1044100178 / 4000610561
HEARING DECISION RELEASE DATE:
January 20, 2017
NOTICE OF FINAL AGENCY ACTION
The record of the administrative hearing and the Administrative Law Judge’s Findings of Fact and Decision in the above identified case were reviewed by the
Secretary of the Family and Social Services Administration or their designee, and the agency hereby issues the following final order:
The Decision of the Administrative Law Judge dated
January 20, 2017 is affirmed
This is the final action that the agency will be
taking on this case. NO further consideration
of this matter will be available through the
Family and Social Services Administration.
However, if you have been the appellant in this matter,
and are dissatisfied with this final agency action, you
may ask that a court review the matter. This is a

App. 41
process called judicial review. If you choose to file a
petition for judicial review, it must be filed
within thirty-three (33) days after the date on
this notice. Since this involves filing a legal petition
with the appropriate court, as well as other specific requirements, it is advisable (but not required) to have
legal representation or help. However, FSSA cannot
provide or pay for this representation, nor can the
agency assist beyond the general information provided
here. More detailed information on this process can be
found in Indiana law at I.C.4-21.5-5.
cc:
LANCE PATTERSON
DENNIS FRICK,
ATTORNEY
CHRISSY CALVERT
MADISON COUNTY DFR
GRANT SERVICE
CENTER
OMPP POLICY
REBECCA LICHT,
ADMINISTRATIVE
LAW JUDGE

CERT. MAIL #
7015 0640 0003 2680 9908
7015 0640 0003 2680 9915
7015 0640 0003 2680 9922

App. 42
NOTICE OF HEARING DECISION
(Filed Jan. 20, 2017)
APPELLANT:
Lance C. Patterson

DATE OF NOTICE
OF ACTION:
October 25, 2016

CASE NUMBER:
1044100178/MAD/01/A04- DATE OF APPEAL:
4000610561
November 23, 2016
HEARING DATE:
December 16, 2016
PLACE: Madison County
Office-DFR
JURISDICTION
This hearing was held under the provisions of 42 CFR
431.200 et seq. and 405 IAC 1.1-1 et seq.
ISSUE
The sole issue before the Administrative Law Judge is
the amount of the Appellant’s nursing facility liability.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

The Administrative Law Judge has carefully reviewed
the testimony presented at the hearing, all evidence,
Federal/State regulations, and policy transmittals in
regard to this matter. The Decision, which follows, outlines the facts and conclusions therefrom that are the
basis for the final determination by the Administrative
Law Judge.

App. 43
THIS DECISION IS FAVORABLE
TO THE STATE.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

FINDINGS OF FACT
1.

The Appellant is a recipient of Medical Assistance
to the Disabled.

2.

The Appellant, a single individual, resides in a
nursing facility.

3.

The State mailed notification to the Appellant on
October 25, 2016 that his liability amount would
be $1,181.00 effective November 1, 2016 for the
reasons: “Income deduction allowed for new or increased health insurance premiums resulting in
lower patient liability.”

4.

On November 23, 2016, the Office of Hearings and
Appeals, Family and Social Services Administration, received an appeal request in the matter.

5.

The hearing was held on December 16, 2016 under
the provisions of 405 IAC 1.1-1 et seq. and 42 CFR
43,200 et seq.

6.

State Agency provided case file materials for the
hearing.

7.

Appellant was accompanied and represented by
Dennis K. Frick, Attorney with Indiana Legal Services, Inc.

8.

Mr. Frick provided additional documents at the
hearing.

9.

Administrative Law Judge submitted Exhibits I
through IV into record without objection by the
State Agency.

App. 44
10. Attorney for Appellant, Dennis Frick, requested a
continuance to provide additional documents.
11. Administrative Law Judge granted a twenty-nine
(29) day continuance without reconvening with no
objection by the State Agency.
12. Additional documents were submitted on December 20, 2016 to Office of Hearings and Appeals as
additional evidence to be entered into record for
the Appellant.
13. Dennis Frick is appealing the liability amount determined for the Appellant does not include a deduction of $730.80 monthly garnished from his
Social Security benefits with the check amount for
$502.00.
14. The Appellant had arrears child support of
$730.80 order effective July 9, 2012 in the state of
Minnesota to be garnished from his Social Security benefits monthly and paid to Ramsey County
Child Support and Collections with Doc ID:
123CS530002128 for Tanisha E. Smith born January 10, 1986 until further notice. Appellant’s current balance remaining as of December 19, 2016
was $56,573.58.
15. The Appellant’s income consists of $1,236.00 in
gross Social Security benefits.
16. The Appellant has monthly expenses of $52.00
(personal needs) + $2.60 (health insurance premium) = $54.60. $1,126.00 (Social Security) –
($54.60) = $1,181.00 liability amount.
17. Appellant’s Attorney contends the Appellant falls
short of having the financial means to pay the

App. 45
liability amount imposed by the State Agency
when he does not have the access to the income.
Examples provided for consideration were not current and exact situation as the Appellant’s by Mr.
Frick.
18. The Appellant’s child, Tanisha E. Smith, is not a
dependent under the age of twenty-one (21) residing in his home at the time he entered the nursing
home setting or he claims for tax filing purpose.
Thus, she is not considered as eligible dependent
for any benefits from his income to be deducted for
her.
LEGAL BASIS
405 IAC 2-1-1(e) “Institution” means a Title XIX certified hospital, nursing facility, intermediate care facility
for the mentally retarded, or public institution. It does
not include a facility where FFP is not available under
42 CFR § 435.1009.
405 IAC 2-1.11(j) “Special income level” refers to an
amount equal to three hundred percent (300%) of the
maximum benefit payable under the SSI program.
405 IAC 2-1.1-5(g) Individuals in institutions and individuals receiving home and community-based
waiver services. To be considered income eligible while
either residing in an institution or while receiving
home and community-based waiver services, an individual must have countable income that is not more
than the special income level.

App. 46
(1) If residing in an institution, the individual
must reside there for a period of not less than
thirty (30) continuous days. If a person dies before
the thirty (30) continuous days has passed, it is assumed that the thirty (30) continuous days has
been met.
(2) The countable income for an individual described in this subsection consists only of income
of the individual, which includes the following:
(A)

Gross earnings.

(B)

Net rental income.

(C)

Net self-employment income.

(D) All gross unearned income, excluding SSI.
(3) Any income from another financially responsible relative described under 405 IAC 2-3-4 will
not be included when determining whether an individual falls below the special income level.
(4) Income that has been placed or delivered to a
trust described in 405 IAC 2-322(i)(2) will be disregarded for purposes of determining income eligibility under the special income level.
405 IAC 2-3-4, The countable income of an applicant
for or recipient includes income of certain legally responsible relatives in the following situations:
(1) Except as provided in subdivision (3), if the
applicant or recipient is under eighteen (18) years
of age and is living with his or her parent(s), his or
her income includes the income of his or her parent(s).

App. 47
(2) If the applicant or recipient is living with his
or her spouse, his or her income includes the income of his or her spouse.
(3) income of the parent(s) is not included if the
applicant or recipient is under eighteen (18) years
of age and has been approved from home and community based services under an approved waiver,
in accordance with 42 USC § 1396n, which specifies the exclusion of parental income.
405 IAC 2-3-22(i) This section shall not apply to any of
the following trusts:
(2)

A qualified income trust composed only of:

(A)

pension;

(B)

Social Security;

(C)

other income of the individual; and

(D)

accumulated income in the trust;

where income of clauses (A) through (C) is delivered to the trustee of the trust, and the trust instrument provides that the state will receive all
amounts remaining in the trust upon the death of
the individual up to an amount equal to the total
medical assistance paid on behalf of the individual. The trust cannot be allowed to terminate in
any manner at any time before the death of the
individual.
405 IAC 2-1.1-7(a) This subsection applies to individuals in institutions.
(1) Except as provided in 405 IAC 2-3-17, the following procedure shall be used to determine the

App. 48
amount of income to be paid to an institution for
an applicant or recipient who has been determined
eligible under section 5(g) of this rule and who is
residing in a Title XIX certified hospital, nursing
facility, intermediate care facility for the mentally
retarded, or public institution.
(2) Determine the applicant or recipient’s total
income that is not excluded by federal statute,
which includes amounts deducted in the eligibility
determination under section 5(g)(3) of this rule.
(3) Subtract the minimum personal needs
amount that is equal to the special income level.
(4) Subtract an amount for increased personal
needs as allowed under Indiana’s approved Medicaid state plan. The increased personal needs allowance includes, but is not limited to, court
ordered guardianship fees paid to an institutionalized applicant or recipient’s legal guardian, not
to exceed thirty-five dollars ($35) per month.
Guardianship fees include all services and expenses required to perform the duties of a guardian, as well as any attorney’s fees for which the
guardian is liable.
(5) Subtract the amount of any health insurance
premiums.
(6) Subtract an amount for expenses incurred for
necessary or remedial care recognized by state law
but not covered under the state plan, subject to
any reasonable limits set forth in Indiana’s approved Medicaid state plan.

App. 49
(7) Subtract an amount for federal, state, and local taxes owed and paid by the applicant or recipient.
This deduction is limited to one (1) calendar
month per year.
The resulting amount is the amount by which the Medicaid payment to the facility shall be reduced.
(c) A child under eighteen (18) years of age determined eligible for benefits under section 5(g) of this
rule will not have any resources or income from his or
her parents deemed to such child under this section.
405 IAC 2-3-17(a) As used in this section, “institutionalized spouse” and “community spouse” have the
meanings set forth in 42 USC §1396s-5(h)(1),
(b) The income eligibility of an institutionalized
applicant or recipient with a community spouse shall
be in accordance with 405 IAC 2-1.1-5(g).
(c) If an applicant or recipient is determined eligible for medical assistance under subsection (b), posteligibility treatment of income to calculate the amount
of income to be paid to the institution is determined as
follows:
(1) Subtract from the applicant’s or recipient’s
gross income determined according to ownership
provisions set forth in 42 USC §1396r-5(b) those
exclusions required by federal law.
(2) Subtract a spousal allocation equal to the
community spouse’s total income, in accordance
with ownership provisions set forth in 42 USC

App. 50
§1396r-5(b), subtracted from the sum of nine hundred eighty-four dollars ($984), plus an excess
shelter allowance determined under 42 USC
§1396r-5(d)(4), subject to all provisions of 42 USC
§1396r-5(d), 42 USC §1396r-5(e), and 42 USC
§1396r-5(g).
(3) Subtract an allocation for each dependent
family member, as defined in subsection (e), equal
to one-third (1/3) of the amount by which nine
hundred eighty-four dollars ($984) exceeds the
family member’s total income, subject to the provisions of 42 USC §1396r-5(d), 42 USC §1396r-5(e),
and 42 USC §1396r-5(g).
(d) The spousal allocation calculated in subsection (c)(4) [sic] is deducted from the institutionalized
applicant’s or recipient’s income only to the extent that
it is actually made available to, or for the benefit of, the
community spouse.
(e) “Dependent family member”, for the purpose
of determining the allocation in subsection (c)(5) [sic],
is a person listed, as follows, who resides with the community spouse:
(1) Biological or adoptive children of either
spouse under twenty-one (21) years of age.
(2) Biological or adoptive children of the community or institutionalized spouse who are:
(A)

twenty-one (21) years of age or over; and

(B) claimed for tax purposes by either
spouse under the Internal Revenue Service
Code,

App. 51
(3) The parent or parents of the community or institutionalized spouse who are claimed as dependents by either spouse for tax purposes under the
Internal Revenue Service Code.
(4) Biological and adoptive siblings of the community or institutionalized spouse who are
claimed by either spouse for tax purposes under
the Internal Revenue Service Code.
IC 12-15-7-2 Fifty-two dollars ($52) monthly may be
exempt from income eligibility consideration.
20 CFR § 416.1123(b)(2) Amount considered as income.
We may include more or less of your unearned income
than you actually receive.
(2) We also include more than you actually receive if
amounts are withheld from unearned income because
of a garnishment, or to pay a debt or other legal obligation, or to make any other payment such as payment
of your Medicare premiums as applied by 405 IAC 21.1-5(a).
405 IAC 2-1.1-5(a) Individuals declared eligible for
benefits by reason of age, disability, or blindness are
subject to the income definition and exclusions set
forth in 42 U.S.C. 1382a and 20 CFR Part 416, Subpart
K Income.

App. 52
CONCLUSIONS OF LAW
Sole issue before Administrative Law Judge is whether
the State Agency determined the Appellant’s liability
to nursing facility with allowable expenses provided
from monthly gross income.
The State Agency added additional deduction of $2.60
for health premium which lowered the liability amount
for the Appellant effective November 1, 2016.
The Appellant is responsible for a past debt of child
support for a thirty-one year old child which effective
in 2009 court ordered his obligation to pay. The garnishment of $730.80 has since been collected from his
Social Security benefits.
State Agency followed all regulations cited above to determine allowable deductions to be given to the Appellant when determining his monthly liability obligation.
No regulation was found for garnishment of arrears
child support to a non-dependent child to be an allowable deduction in liability amount determination..
State Agency correctly determined the Appellant’s
monthly liability amount.

App. 53
DECISION
The Administrative Law Judge sustains the determination of the monthly liability for Lance C. Patterson
effective November 1, 2016.
/s/ Rebecca Licht
Rebecca Licht
Administrative Law Judge
(signature electronically
affixed by Rebecca Licht,
Administrative Law Judge)
[Appeal Rights Omitted]

App. 54
In the
Indiana Supreme Court
Indiana Family & Social
Services Administration,
Appellant(s),
v.
Lance Patterson,
Appellee(s).

Court of Appeals Case
No. 18A-PL-00925
Trial Court Case No.
33C02-1703-PL-19

Order
(Filed May 9, 2019)
This matter has come before the Indiana Supreme
Court on a petition to transfer jurisdiction, filed pursuant to Indiana Appellate Rules 56(B) and 57, following
the issuance of a decision by the Court of Appeals. The
Court has reviewed the decision of the Court of Appeals, and the submitted record on appeal, all briefs
filed in the Court of Appeals, and all materials filed in
connection with the request to transfer jurisdiction
have been made available to the Court for review. Each
participating member has had the opportunity to voice
that Justice’s views on the case in conference with the
other Justices, and each participating member of the
Court has voted on the petition.
Being duly advised, the Court DENIES the petition to transfer.

App. 55
Done at Indianapolis, Indiana, on 5/9/2019.
/s/ Loretta H. Rush
Loretta H. Rush
Chief Justice of Indiana
All Justices concur, except David, J., and Goff, J., who
vote to grant the petition to transfer.

App. 56
42 C.F.R. § 435.725
§ 435.725 Post-eligibility treatment of income of
institutionalized individuals in SSI States:
Application of patient income to the cost of care.
(a)

Basic rules.
(1) The agency must reduce its payment to an institution, for services provided to an individual
specified in paragraph (b) of this section, by the
amount that remains after deducting the amounts
specified in paragraphs (c) and (d) of this section,
from the individual’s total income.
(2) The individual’s income must be determined
in accordance with paragraph (e) of this section.
(3) Medical expenses must be determined in accordance with paragraph (f ) of this section.

(b) Applicability. This section applies to the following
individuals in medical institutions and intermediate
care facilities.
(1) Individuals receiving cash assistance under
SSI or AFDC who are eligible for Medicaid under
§ 435.110 or § 435.120.
(2) Individuals who would be eligible for AFDC,
SSI, or an optional State supplement except for
their institutional status and who are eligible for
Medicaid under § 435.211.
(3) Aged, blind, and disabled individuals who are
eligible for Medicaid, under § 435.231, under a
higher income standard than the standard used in

App. 57
determining eligibility for SSI or optional State
supplements.
(c) Required deductions. In reducing its payment to
the institution, the agency must deduct the following
amounts, in the following order, from the individual’s
total income, as determined under paragraph (e) of this
section. Income that was disregarded in determining
eligibility must be considered in this process.
(1) Personal needs allowance. A personal needs
allowance that is reasonable in amount for clothing and other personal needs of the individual
while in the institution. This protected personal
needs allowance must be at least—
(i) $30 a month for an aged, blind, or disabled individual, including a child applying for Medicaid
on the basis of blindness or disability;
(ii) $60 a month for an institutionalized couple if
both spouses are aged, blind, or disabled and their
income is considered available to each other in determining eligibility; and
(iii) For other individuals, a reasonable amount
set by the agency, based on a reasonable difference
in their personal needs from those of the aged,
blind, and disabled.
(2) Maintenance needs of spouse. For an individual with only a spouse at home, an additional
amount for the maintenance needs of the spouse.
This amount must be based on a reasonable assessment of need but must not exceed the highest
of—

App. 58
(i) The amount of the income standard used to
determine eligibility for SSI for an individual living in his own home, if the agency provides Medicaid only to individuals receiving SSI;
(ii) The amount of the highest income standard,
in the appropriate category of age, blindness, or
disability, used to determine eligibility for an optional State supplement for an individual in his
own home, if the agency provides Medicaid to optional State supplement beneficiaries under
§ 435.230; or
(iii) The amount of the medically needy income
standard for one person established under
§ 435.811, if the agency provides Medicaid under
the medically needy coverage option.
(3) Maintenance needs of family. For an individual with a family at home, an additional amount
for the maintenance needs of the family. This
amount must—
(i) Be based on a reasonable assessment of their
financial need;
(ii) Be adjusted for the number of family members living in the home; and
(iii) Not exceed the higher of the need standard
for a family of the same size used to determine eligibility under the State’s approved AFDC plan or
the medically needy income standard established
under § 435.811, if the agency provides Medicaid
under the medically needy coverage option for a
family of the same size.

App. 59
(4) Expenses not subject to third party payment.
Amounts for incurred expenses for medical or remedial care that are not subject to payment by a
third party, including—
(i) Medicare and other health insurance premiums, deductibles, or coinsurance charges; and
(ii) Necessary medical or remedial care recognized under State law but not covered under the
State’s Medicaid plan, subject to reasonable limits
the agency may establish on amounts of these expenses.
(5) Continued SSI and SSP benefits. The full
amount of SSI and SSP benefits that the individual continues to receive under sections
1611(e)(1)(E) and (G) of the Act.
(d) Optional deduction: Allowance for home maintenance. For single individuals and couples, an amount
(in addition to the personal needs allowance) for
maintenance of the individual’s or couple’s home if—
(1) The amount is deducted for not more than a
6–month period; and
(2) A physician has certified that either of the individuals is likely to return to the home within
that period.
(3) For single individuals and couples, an
amount (in addition to the personal needs allowance) for maintenance of the individual’s or couple’s home if—
(i) The amount is deducted for not more than a
6–month period; and

App. 60
(ii) A physician has certified that either of the individuals is likely to return to the home within
that period.
(e)

Determination of income—
(1) Option. In determining the amount of an individual’s income to be used to reduce the agency’s
payment to the institution, the agency may use total income received, or it may project monthly income for a prospective period not to exceed 6
months.
(2) Basis for projection. The agency must base
the projection on income received in the preceding
period, not to exceed 6 months, and on income expected to be received.
(3) Adjustments. At the end of the prospective
period specified in paragraph (e)(1) of this section,
or when any significant change occurs, the agency
must reconcile estimates with income received.

(f )

Determination of medical expenses—
(1) Option. In determining the amount of medical expenses to be deducted from an individual’s
income, the agency may deduct incurred medical
expenses, or it may project medical expenses for a
prospective period not to exceed 6 months.
(2) Basis for projection. The agency must base
the estimate on medical expenses incurred in the
preceding period, not to exceed 6 months, and on
medical expenses expected to be incurred.
(3) Adjustments. At the end of the prospective
period specified in paragraph (f )(1) of this section,

App. 61
or when any significant change occurs, the agency
must reconcile estimates with incurred medical
expenses.
History: [43 FR 45204, Sept. 29, 1978, as amended at
45 FR 24884, Apr. 11, 1980; 48 FR 5735, Feb. 8, 1983;
53 FR 3595, Feb. 8, 1988; 55 FR 33705, Aug. 17, 1990;
56 FR 8850, 8854, Mar. 1, 1991; 58 FR 4932, Jan. 19,
1993; 58 FR 9120, Feb. 19, 1993; 58 FR 44457, Aug. 23,
1993; 59 FR 8138, Feb. 18, 1994]

